                                  SENSITIVE BUT UNCLASSIFIED




                    UNITED STATES DEPARTMENT OF STATE
                AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-IT-14-33                                    Office of Audits                                   September 2014




         Audit of International Boundary and Water Commission,
                  United States and Mexico, U.S. Section,
                       Information Security Program




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General




                                            (U) PREFACE

       (U) This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        (U) This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observation, and a review of applicable documents.

        (U) The recommendations therein have been developed on the basis of the best
knowledge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result in more
effective, efficient, and/or economical operations.

          (U) I express my appreciation to all of those who contributed to the preparation of this
report.




                                                (U) Norman P. Brown
                                                (U) Assistant Inspector General
                                                     for Audits




                                  SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




______________________________________________________________
(U) Acronyms
(U) FISMA    Federal Information Security Management Act
(U) GSS      General Support System
(U) IBWC     International Boundary and Water Commission
(U) NIST     National Institute of Standards and Technology
(U) OIG      Office of Inspector General
(U) SBIWTP   South Bay International Wastewater Treatment Plant
(U) SCADA    Supervisory Control and Data Acquisition
(U) SP       Special Publication




                          SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


                                                    (U) Table of Contents

(U) Section                                                                                                                         (U) Page

(U) Executive Summary ................................................................................................................. 1


(U) Background .............................................................................................................................. 2


(U) Objective .................................................................................................................................. 4


(U) Audit Results ............................................................................................................................ 5
    (U) Finding A.[Redacted] (b) (5)
                          ............................................................................................................... 5
    (U) Finding B. [Redacted] (b) (5)
                     ........................................................................................................................ 6
    (U) Finding C. [Redacted] (b) (5)                                                                                                ........... 7
    (U) Finding D. [Redacted] (b) (5)                                          Remains Vulnerable to Outsider Attacks
    and Insider Threats ..................................................................................................................... 8
    (U) Finding E. IBWC Made Notable Improvements With its Information Security Program .. 9


(U) List of Recommendations....................................................................................................... 11


(U) Appendices
    (U) A. Scope and Methodology ............................................................................................... 12
    (U) B. Office of Inspector General FY 2013 Federal Information Security Management Act
    Report Statuses of Recommendations...................................................................................... 14
    (U) C. IBWC Management Responses .................................................................................... 20


(U) Major Contributors to This Report ......................................................................................... 23




                                            SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


                                      (U) Executive Summary
        (U) In accordance with the Federal Information Security Management Act of 2002 1
(FISMA), the Department of State (Department), Office of Inspector General (OIG), conducted
an audit of the U.S. Section, International Boundary and Water Commission (IBWC),
information security program and practices. The purpose of the audit was to determine
compliance with Federal laws, regulations, and standards established by FISMA, the Office of
Management and Budget (OMB), and the National Institute of Standards and Technology
(NIST). In addition, OIG reviewed IBWC’s corrective actions to address weaknesses identified
in OIG’s FY 2013 report. 2 OIG closed 22 of 27 recommendations in the FY 2013 report. The
status of each recommendation from OIG’s FY 2013 report is presented in Appendix B.

       (U) During FY 2014, OIG conducted field work at IBWC’s U.S. Section headquarters in
El Paso, TX; South Bay International Wastewater Treatment Plant (SBIWTP) and field office in
San Diego, CA; Nogales International Wastewater Treatment Plant in Nogales, AZ; Amistad
Dam and field office in Del Rio, TX; and the General Support System (GSS) continuity of
operations site in Las Cruces, NM.

        (SBU) Overall, OIG found that IBWC had implemented an information security program.
The Information Management Division, led by its Information System Security Manager, with
guidance from IBWC’s Chief Administrative Officer and support from the Commissioner, made
significant progress on previously identified weaknesses. For example, IBWC established a
Continuous Security Monitoring program for its GSS, developed authorization packets for its
GSS and Supervisory Control and Data Acquisition (SCADA) systems, 3 cleared multiple
personnel requiring enhanced background investigations, developed contingency documentation,
and implemented a multifactor authentication solution for logical access.

        (SBU) Notwithstanding the progress made by IBWC, OIG identified the following
control weaknesses related to four security control areas:

        •   (SBU) [Redacted] (b) (5)                                                                  .
            (Finding A)
        •   (SBU) IBWC’s [Redacted] (b) (5)                                                         policy. In
            addition, [Redacted] (b) (5)
            [Redacted] (b) (5)                                                 . (Finding B)
        •   (SBU) IBWC had        not [Redacted] (b) (5)                                                   .
            (Finding C)




1
  (U) E-Government Act of 2002, Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
2
  (U) Audit of International Boundary and Water Commission, United States and Mexico, U.S. Section, Information
Security Program (AUD/IT-13-39, September 2013).
3
  (U) A SCADA system performs centralized monitoring and control for field sites over long-distance
communications networks, including monitoring alarms and processing status data.
                                               1
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


       •   (SBU) IBWC’s [Redacted] (b) (5)                                    . In addition,
           IBWC included contractor-owned inventory in the Integrated Logistics Management
           System. (Finding D)

        (SBU) OIG made six recommendations to IBWC intended to improve its information
security program and practices. In July 2014, OIG provided a draft of this report to IBWC. In its
July 29, 2014, response (Appendix C) to the draft report, IBWC concurred with all six
recommendations. Based on the comments received, OIG considers all six recommendations
resolved, pending further action. IBWC’s management responses to the recommendations and
OIG’s analysis to the responses are presented after each recommendation.

                                      (U) Background
       (U) IBWC is a binational commission, established to apply boundary and water treaties
and agreements between the United States and Mexico. IBWC consists of a U.S. Section and a
Mexican Section. The organization of IBWC’s U.S. Section is shown in Figure 1. Each Section
is administered independently of the other, and is headed by an Engineer Commissioner, who is
appointed by his respective President. The U.S. Section receives foreign policy guidance from
the U.S. Department of State, while the Mexican Section is administratively linked to the
Secretariat of Foreign Relations of Mexico. The joint mission of the U.S. Section and the
Mexican Section is as follows:

       •   (U) Distribute the waters of the boundary-rivers between the two countries.
       •   (U) Operate international flood control along the boundary-rivers.
       •   (U) Operate the international reservoirs for conservation and regulation of Rio
              Grande waters for the two countries.
       •   (U) Improve the quality of water of international rivers.
       •   (U) Resolve border sanitation issues.
       •   (U) Develop hydroelectric power.
       •   (U) Establish the boundary in the area bordering the Rio Grande.
       •   (U) Demarcate the land boundary.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

(U) Figure 1. U.S. Section of IBWC Organizational Chart




                           F04'eign       Public           ~eg a I                            Human                Washington
                           Affairs        Affairs         A ffairs                            Capital              DC Li aison




                                                                     Engineering                  Administration
                                                                     Department                    Department



                                                                                                                      Budget
                                                    Environmental                                                     Division
                                                    Management
                                                      Division

                                                                                                                     Finance &
                                                                                                                    Accounting
                                                     Engineering                                                      Division
                                                                                Master Planning
                                                       Services                    Division
                                                       Divisi on
                                                                                                                    Acquisition
                                                                                                                      Division
                                                     Con strucUon               Boundary and
                                                        Office                  Realty Office
                                                                                                                    lnfotmation
                                                                                                                   Management
                                                                                                                      Division



                                                                                                         Records                    Asset
                                                                                                        Management               M anagem ent
                                                                                                          Office                    Office



                                                                     • Notes:
                                                                         The Office of the Commissioner includes the Equal
                                                                         Employment Opportunity and I nternal Audit P rograms.
                                                                         The Speci al Operations Division manages the security,
                                                                         and the Safety and Health Program s.
                                                                         The American Dam/CarlOs Marin Field Office is located
                                                                         in El Paso, TX.
                                                                         The Environmental Management Division manages-the
                                                                         Texas C lean Rivers and GIS Programs.
                                                                         The Master Planning DiviSion manages the Strategic
                                                                         Planning and Capital Plannir)g Program s .




(U) Source: This chart is an excerpt from the IBWC FY 2011-2016 Strategic Plan.

        (U) The U.S. Section owns the contractor-operated SBIWTP, which is responsible for
 meeting the Clean Water Act requirements mandated by the State of California. The SBIWTP

                                                   3
                                      SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

discharges the clean water into the Pacific Ocean. The U.S. Section also maintains and operates
the Nogales International Wastewater Treatment Plant in accordance with the Clean Water Act
discharge standards mandated by Arizona. Each wastewater treatment plant has a SCADA
system. Based on information received from remote stations, automated or operator-driven
supervisory commands are controlled by remote station control devices, which are often referred
to as field devices. Field devices control local operations such as opening and closing valves and
breakers, collecting data from sensor systems, and monitoring the local environment for alarm
conditions.

     (U) FISMA was enacted into law as Title III, Public Law Number 107-347, on
December 17, 2002. Key requirements of FISMA are as follows:

       •   (U) The establishment of an agency-wide information security program to provide
           information security for the information and information systems that support the
           operations and assets of the agency, including those provided or managed by another
           agency, contractor, or other source.
       •   (U) An annual independent evaluation of the agency’s information security programs
           and practices.
       •   (U) An assessment of compliance with FISMA requirements.

        (U) FISMA assigns specific responsibilities to NIST, OMB, and the Department of
Homeland Security and other Federal agencies for the purpose of strengthening information
system security throughout the Federal Government. In particular, FISMA requires the head of
each agency to implement policies and procedures to cost effectively reduce information
technology security risks to an acceptable level. To ensure the adequacy and effectiveness of
information system controls, FISMA requires agency program officials, chief information
officers, chief information security officers, senior agency officials for privacy, and inspectors
general to conduct annual reviews of the agency’s information security program and report the
results to the Department of Homeland Security.

       (U) The U.S. Section is developing and implementing information technology policies
and procedures to meet requirements mandated by FISMA, OMB, and NIST for its information
systems. The Section has also entered into agreements with third parties to help meet FISMA
compliance.

                                         (U) Objective
        (U) The objective of the audit was to assess the effectiveness of IBWC’s information
security program in FY 2014. Specifically, OIG assessed risk management, configuration
management, incident response and reporting, security training, plan of action and milestones,
remote access management, identity and access management, continuous monitoring,
contingency planning, oversight of contractor systems, security capital planning, access controls,
personnel security, and physical and environmental protection.


                                           4
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                                          (U) Audit Results

(U) Finding A. [Redacted] (b) (5)


        (SBU) For FY 2014, IBWC executed a contract with Aitheras, who subcontracted
TruShield to perform [Redacted] (b) (5)      of its GSS. TruShield provided IBWC with weekly
status updates and monthly vulnerability scans. However, IBWC had not [Redacted]
[Redacted] (b) (5)                                                               (b) (5)


        (SBU) [Redacted] (b) (5)
                                                                                [Redacted] (b) (5)


                                                                        Although IBWC was
aware of the NIST requirement for its SCADA systems, [Redacted] (b) (5)
                                                      Therefore, IBWC contracted Veolia to
ensure the SCADA systems were FISMA compliant; however, Veolia did not perform the
contractual work, which included [Redacted] (b) (5)   . Because Veolia had not performed the
required work, IBWC utilized TruShield to develop [Redacted] (b) (5)
                                   The SCADA [Redacted] is currently in draft.
                                                      (b) (5)
        (SBU) Without an     [Redacted] (b) (5)
                             there is an increased risk that the [Redacted] (b) (5)
                                                               leading to potential damage or
disruption to IBWC’s SCADA systems. In addition, environmental hazards could occur resulting
in fines and lawsuits for IBWC. 5

        (SBU) Recommendation 1. OIG recommends that the International Boundary and Water
        Commission (IBWC [Redacted] (b) (5)
                                                                 , as required by National
        Institute of Standards and Technology Special Publication 800-53, Revision 3.

        (SBU) Management Response: IBWC concurred with the recommendation, stating that
        it would obtain an [Redacted] (b) (5)




4
  (U) NIST SP 800-53, rev. 3, “Recommended Security Controls for Federal Information Systems and
Organizations,” CA-7 [Redacted] (b) (5)        Aug. 2009 (last updated May 2010).
5
  (U) Lauren Steussy and Paul Krueger, “Sewage Flowed into Local Waters without Notice: Report,” NBC 7 San
Diego, April 12, 2012, <http://www.nbcsandiego.com/news/local/Sewage-Spilled-in-Local-Waters-without-Notice-
147198795.html >, accessed on June 17, 2014.

                                              5
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        (U) OIG Reply: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews and accepts the [Redacted] (b) (5)        for each
        SCADA system.

(U) Finding B.[Redacted] (b) (5)


       (SBU) In FY 2014, IBWC established a testing process for changes to its GSS. However,
IBWC determined that its [Redacted] (b) (5)
        because of the high availability and sensitivity requirements necessary for the system.
Therefore, IBWC executed a contract 7 to develop an [Redacted] (b) (5)
             However, at the time of OIG’s site visit in March 2014, IBWC had not [ Redacted]
                                                                                                 ( b) (5)



      (SBU) [Redacted] (b) (5)                                                                         . NIST
SP 800-53, Revision 3, states that the organization [Redacted] (b) (5)
[Redacted] (b) (5)


                         ” IBWC’s [Redacted] (b) (5)
       because of the Information Management Division’s [Redacted] (b) (5) . Without a
[Redacted] (b) (5)                unapproved and untested changes to the SCADA systems
could occur that would compromise the confidentiality, integrity, and availability of the systems.

        (SBU) In addition, OIG found that IBWC’s [Redacted] (b) (5)
                                                                                        NIST SP 800-82 9
states that the[Redacted] (b) (5)

                                                              Because [Redacted] (b) (5)


                                                         since our last reporting. Without an
[Redacted] (b) (5)                                                         , IBWC’s SCADA
systems are more susceptible to security weaknesses and denial of service.

        (SBU) Recommendation 2. OIG recommends that the International Boundary and Water
        Commission [Redacted] (b) (5)
                                                   that includes [Redacted] (b) (5) , as


6
  (U) IBWC’s IT System C&A Inventory Guide, Appendix A, states, “A loss of availability of information could
result in severe or catastrophic adverse effect which may cause a severe degradation in or loss of mission
capability.”
7
  (U) Aitheras with subcontractor TruShield.
8
  (U) NIST SP 800-53, rev. 3, [Redacted] (b) (5)
9
  (U) NIST SP 800-82, “Guide to Industrial Control Systems (ICS) Security,” June 2011.
                                              6
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

        required by National Institute of Standards and Technology Special Publication 800-53,
        Revision 3.

        (SBU) Management Response: IBWC concurred with the recommendation, stating that
                                                                                   [Redacted] (b) (5)
        it had completed a risk assessment for both SCADA systems, leading to an
                                                                                  [Redacted] (b) (5)
                expected to be completed in FY 2014. IBWC further stated that the
                                                            would be implemented in 2015.

        (U) OIG Reply: OIG considers the recommendation resolved. This recommendation can
        be closed when OIG reviews and accepts the [Redacted] (b) (5)

        (SBU) Recommendation 3. OIG recommends that the International Boundary and Water
        Commission [Redacted] (b) (5)
                                      as required by National Institute of Standards and
        Technology Special Publication 800-82.

        (SBU) Management Response: IBWC concurred with the recommendation, stating that
                                                                                  [Redacted] (b) (5)
        it had completed a risk assessment for both SCADA systems and that the
                                                    IBWC further stated that the [Redacted] (b) (5)
                                                                                         [Redacted] (b) (5)
                                                        the end of 2014 and that the
                 will be awarded by the end of FY 2014 and will be implemented in FY 2015.

        (U) OIG Reply: OIG considers the recommendation resolved. This recommendation
        can be closed when OIG reviews the [Redacted] (b) (5)


(U) Finding C. [Redacted]                (b) (5)                                   Had Not Been
Performed
       (SBU) In FY 2014, IBWC completed a Business Impact Assessment, an Information
System Contingency Plan, and acquired hardware to assist in contingency planning of its GSS.
Further, IBWC had established a manual contingency planning process for its SCADA systems.
However, IBWC did not [Redacted] (b) (5)

      (SBU) IBWC had not [Redacted] (b) (5)                                                             . NIST
SP 800-34, Revision 1, 10 states that an organization [Redacted] (b) (5)


                                        ” IBWC had not performed [Redacted] (b) (5) due
to insufficient time between the completion of its [Redacted] (b) (5) and OIG’s site visit.
However, by not[Redacted] (b) (5)


10
  (U) NIST SP 800-34, rev. 1, “Contingency Planning Guide for Federal Information Systems,” Executive
Summary, May 2010.
                                              7
                                 SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED



           (SBU) Recommendation 4. OIG recommends that the International Boundary and Water
           Commission [Redacted] (b) (5)                                              , as required
           by National Institute of Standards and Technology Special Publication 800-34,
           Revision 1.

           (SBU) Management Response: IBWC concurred with the recommendation, stating that
           it is on target to [Redacted] (b) (5)                in FY 2014.

           (U) OIG Reply: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG receives documentation from the [Redacted] (b) (5) .

(U) Finding D. [Redacted] (b) (5)                                                                  to
Outsider Attacks and Insider Threats

        (SBU) Although IBWC owns the SBIWTP, the facility is operated by the contractor
Veolia. 11 Veolia utilizes a SCADA system to monitor the wastewater treatment process that
flows from Tijuana, Mexico. As previously noted, it is the responsibility of IBWC to ensure that
the SCADA system used at the [Redacted] (b) (5)                       .

       (SBU) In April 2012, IBWC executed a contract amendment with Veolia that included an
additional $100,000 so that Veolia could [Redacted] (b) (5)
                                                                                     According
to IBWC officials, the $100,000 obligated in FY 2012 remains available until the task is
completed. Because Veolia had not performed the required work, IBWC utilized subcontractor
TruShield to develop a [Redacted] (b) (5)
            Section 3544(a)(l)(A) of FISMA states:

           The head of each agency shall be responsible for providing information security
           protections commensurate with the risk and magnitude of the harm resulting from
           unauthorized access, use, disclosure, disruption, modification, or destruction of (i)
           information collected or maintained by or on behalf of the agency; and (ii)
           information systems used or operated by an agency or by a contractor of an
           agency or other organization on behalf of an agency.

        (SBU) At the time of our fieldwork at SBIWTP in April 2014, no work had been
performed by Veolia or TruShield to make the [Redacted] (b) (5)               . Without
IBWC ensuring that the SCADA system at the[Redacted] (b) (5)                       , there is
greater risk for outside attacks and insider threats.

        (SBU) In addition, IBWC included Veolia-owned information technology inventory in
the Integrated Logistics Management System, which is strictly for Government-owned assets.

11
     (U) Veolia has been under contract with IBWC since October 1, 2010.
12
     (U) E-Government Act of 2002, Pub. L. No. 107-347, tit. III, 116 Stat. 2946 (2002).
                                                  8
                                     SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

According to NIST SP 800-53, Revision 3, 13 the organization “develops, documents, and
maintains an inventory of information system components that accurately reflects the current
information system.” This occurred because IBWC tagged all inventory at its facility without
first determining ownership. Without determining ownership of the inventory, IBWC is
comingling assets that do not belong to the Government resulting in inaccurate inventory which
could affect financial reporting.

           (SBU) Recommendation 5. OIG recommends that the International Boundary and Water
           Commission ensure its [Redacted] (b) (5)


           (SBU) Management Response: IBWC concurred with the recommendation, stating that
           it had excluded the Admin Network from IBWC inventory. In addition, IBWC’s
           Information System Security Manager will review and approve all equipment that
           supports the SCADA systems [Redacted] (b) (5)           .

           (U) OIG Reply: OIG considers the recommendation resolved. This recommendation
           can be closed when OIG reviews the contractor-operated system [Redacted] (b) (5)


           (SBU) Recommendation 6. OIG recommends that the International Boundary and
           Water Commission (IBWC) determine ownership of information technology inventory
           and update the Integrated Logistics Management System to accurately reflect IBWC’s
           current information system components, as required by National Institute of Standards
           and Technology Special Publication 800-53, Revision 3.

           (SBU) Management Response: IBWC concurred with the recommendation, stating that
           it had completed a comprehensive inventory validation occurred in FY 2014. IBWC is
           updating ILMS to ensure that only IBWC inventory is included. IBWC plans on
           completing this in FY 2014.

           (U) OIG Reply: OIG considers the recommendation resolved. This recommendation can
           be closed when OIG reviews ILMS to determine that only IBWC inventory has been
           included.

(U) Finding E. IBWC Made Notable Improvements With its Information
Security Program
        (U) In FY 2014, OIG found that IBWC was in compliance with the FISMA requirements
related to risk management, incident response and reporting, security training, plan of action and
milestones, remote access management, identity and access management, and security capital
planning. In addition, OIG found that IBWC had improved its compliance with FISMA
requirements related to contractor oversight and contingency planning. As a result, OIG closed

13
     (U) NIST SP 800-53, rev. 3, “CM-8 Information System Component Inventory.”
                                                9
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

three prior year recommendations related to contractor oversight and one prior year
recommendation related to contingency planning. Further, OIG reviewed access controls,
personnel security, and physical and environmental protection and found IBWC had
implemented sufficient security controls.

        (U) OIG would like to call attention to the work and dedication of IBWC officials during
the past 6 months to improve IBWC’s security program. With top down leadership support,
IBWC was able to close 22 of 27 OIG recommendations and IBWC continues to make progress
in securing its information systems.




                                         10
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                              (U) List of Recommendations

(SBU) Recommendation 1. OIG recommends that the International Boundary and Water
Commission (IBWC) [Redacted] (b) (5)
                                                , as required by National Institute of Standards
and Technology Special Publication 800-53, Revision 3.

(SBU) Recommendation 2. OIG recommends that the International Boundary and Water
Commission [Redacted] (b) (5)
                                      that includes [Redacted] (b) (5), as required by National
Institute of Standards and Technology Special Publication 800-53, Revision 3.

(SBU) Recommendation 3. OIG recommends that the International Boundary and Water
Commission [Redacted] (b) (5)
                    as required by National Institute of Standards and Technology Special
Publication 800-82.

(SBU) Recommendation 4. OIG recommends that the International Boundary and Water
Commission [Redacted] (b) (5)                                              , as required by
National Institute of Standards and Technology Special Publication 800-34, Revision 1.

(SBU) Recommendation 5. OIG recommends that the International Boundary and Water
Commission ensure its [Redacted] (b) (5)


(SBU) Recommendation 6. OIG recommends that the International Boundary and Water
Commission (IBWC) determine ownership of information technology inventory and update the
Integrated Logistics Management System to accurately reflect IBWC’s current information
system components, as required by National Institute of Standards and Technology Special
Publication 800-53, Revision 3.




                                         11
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                               (U) Appendix A
                              (U) Scope and Methodology

        (U) The Federal Information Security Management Act of 2002 (FISMA) requires each
Federal agency to develop, document, and implement an agency-wide program to provide
information security for the information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or another source.
To ensure the adequacy and effectiveness of these controls, FISMA requires the agency’s
inspector general or an independent external auditor perform annual reviews of the information
security program and to report those results to the Office of Management and Budget and the
Department of Homeland Security. The Department of Homeland Security uses this data to assist
in oversight responsibilities and to prepare its annual report to Congress regarding agency
compliance with FISMA. This audit was performed to comply with this requirement.

       (U) The Office of Inspector General (OIG), Office of Audits, performed this audit from
February 2014 through May 2014. OIG performed site visits to the International Boundary and
Water Commission (IBWC) headquarters in El Paso, TX; the South Bay International
Wastewater Treatment Plant and field office in San Diego, CA; Nogales International
Wastewater Treatment Plant in Nogales, AZ; Amistad Dam and field office in Del Rio, TX; and
the General Support System continuity of operations site in Las Cruces, NM.

        (U) OIG conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that OIG plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for its findings and
conclusions based on its audit objective. OIG believes that the evidence obtained provides a
reasonable basis for its findings and conclusions based on the audit objective.

       (U) To perform this audit, OIG interviewed IBWC senior management, employees, and
contractors to evaluate managerial effectiveness and operational controls in accordance with
National Institute of Standards and Technology, IBWC, and Office of Management and Budget
guidance. OIG observed daily operations, obtained evidence to support OIG conclusions and
recommendations, and collected written documents to supplement observations and interviews.

        (U) OIG discussed its preliminary findings with IBWC officials on March 27, 2014. OIG
provided IBWC with Notice of Findings and Recommendations on May 29, 2014. OIG held an
exit conference with IBWC on June 26, 2014.

(U) Work Related to Internal Controls

        (U) OIG assessed the adequacy of internal controls by gaining an understanding of the
effectiveness of IBWC’s information security program as required by FISMA. OIG identified
and discussed exceptions with IBWC officials to understand the reasons behind internal control
challenges. Through conversations with IBWC officials, OIG gained an understanding of the
policies and procedures related to IBWC’s information security program. OIG learned how
IBWC oversees the development of an information security program to protect information and
                                               12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

information systems, to report timely results regarding the security posture of information and
information systems, and to implement corrective measures to address previously identified
FISMA findings and recommendations. OIG’s conclusions on the internal control deficiencies
identified during this audit are detailed in the “Audit Results” section of this report.

(U) Use of Computer-Processed Data

        (U) The audit team used computer-processed employee background screening data during
the audit. To assess the reliability of the data, OIG reviewed documentation related to the
background screening. Specifically, OIG traced the background screening documentation to
position descriptions to determine which individuals required additional background screening to
perform their daily duties. OIG determined that the data were sufficiently reliable to support the
conclusions and recommendations presented in this report.




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                                (U) Appendix B

    (U) Office of Inspector General FY 2013 Federal Information Security
           Management Act Report Statuses of Recommendations

(SBU) Recommendation 1. OIG recommends that the International Boundary and Water
Commission update and finalize its risk management framework to include all three tiers of
managing risk, as required by National Institute of Standards and Technology (NIST) Special
Publications (SP) 800-37, Revision 1, and the four risk management steps, as required by NIST
SP 800-39.

(U) Status: Closed March 2014. The International Boundary and Water Commission (IBWC)
provided the Office of Inspector General (OIG) with its risk management framework.

(SBU) Recommendation 2. OIG recommends that the International Boundary and Water
Commission (IBWC) determine the ownership and classification of the South Bay International
Wastewater Treatment Plant Admin Network and the Geographic Information System in
accordance with Federal Information Processing Standards 199 and update the IBWC Inventory
Guide.

(U) Status: Closed March 2014. IBWC updated its inventory guide to relinquish the ownership
of South Bay International Wastewater Treatment Plant (SBIWTP) Admin Network to a third
party and changed the classification of its Geographic Information System, a major application,
to be classified as moderate.

(SBU) Recommendation 3. OIG recommends that the International Boundary and Water
Commission (IBWC) develop security authorization packages for all IBWC information systems
based on the determination of ownership and classification, as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed March 2014. IBWC developed security authorization packages for its General
Support System and its two Supervisory Control and Data Acquisition systems.

(SBU) Recommendation 4. OIG recommends that the Information Management Division
establish a [Redacted] (b) (5)                                                             for
all International Boundary and Water Commission information systems, as required by National
Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Revision 3, and
as outlined in NIST SP 800-137.

(U) Status: This recommendation has been reissued as Recommendation 1 (Finding A) of the FY
2014 report and closed in the FY 2013 FISMA report.

(SBU) Recommendation 5. OIG recommends that the International Boundary and Water
Commission (IBWC) develop and implement policies and procedures for physical and
environmental protection controls for IBWC assets to include information systems at


                                         14
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

headquarters and at each field office, in accordance with National Institute of Standards and
Technology (NIST) Special Publication (SP) 800-53, Revision 3, and NIST SP 800-82.

(U) Status: Closed March 2014. IBWC provided OIG with its physical and environmental
protection policies and procedures.

(SBU) Recommendation 6. OIG recommends that the International Boundary and Water
Commission develop and implement [Redacted] (b) (5)
                                             , as required by National Institute of Standards
and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed March 2014. IBWC provided OIG with documentation to support that chain
of custody procedures are in place for the access cards and remote gate devices.

(SBU) Recommendation 7. OIG recommends that the Information Management Division
update and implement its Plan of Action and Milestone Directive to include all information
systems, as required by National Institute of Standards and Technology Special Publication 800-
53, Revision 3.

(U) Status: Closed March 2014. IBWC provided its Plan of Action and Milestones for its
General Support System and two Supervisory Control and Data Acquisition systems.

(SBU) Recommendation 8. OIG recommends that the Information Management Division
update the Plan of Action and Milestone database [Redacted] (b) (5)

             as stated in the International Boundary and Water Commission Plan of Action and
Milestone Directive for all information systems.

(U) Status: Closed March 2014. IBWC provided Plan of Action and Milestones which included
all elements.

(SBU) Recommendation 9. OIG recommends that the International Boundary and Water
Commission complete a business case/Exhibit 300/Exhibit 53 to obtain the resources required to
protect its information systems, as required by National Institute of Standards and Technology
Special Publication 800-65.

(U) Status: Closed March 2014. IBWC provided documentation showing that the Office of
Management and Budget had confirmed that the requirement to complete a business case was not
applicable to smaller agencies.

(SBU) Recommendation 10. OIG recommends that the International Boundary and Water
Commission prioritize resources to complete contingency planning documents for all
information systems, as required by National Institute of Standards and Technology (NIST)
Special Publication (SP) 800-53, Revision 3, and NIST SP 800-34, Revision 1.




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(U) Status: Closed March 2014. IBWC provided OIG with a Business Impact Analysis and an
Information System Contingency Plan for its General Support System. IBWC’s contingency
planning for its Supervisory Control and Data Acquisitions are manual controls.

(SBU) Recommendation 11. OIG recommends that the International Boundary and Water
Commission update, approve, and implement an incident response and reporting policy, to
include the correlation of incidents for all information systems, as required by National Institute
of Standards and Technology (NIST) Special Publication (SP) 800-53, Revision 3, and NIST SP
800-61, Revision 2.

(U) Status: Closed May 2014. IBWC provided its incident response and reporting policies for its
General Support System and Supervisory Control and Data Acquisition systems.

(SBU) Recommendation 12. OIG recommends that the International Boundary and Water
Commission (IBWC) implement [Redacted] (b) (5)                              , as required by
the IBWC Configuration Management Directive and National Institute of Standards and
Technology Special Publication 800-53, Revision 3.

(U) Status: This recommendation has been reissued as Recommendation 2 (Finding B) of the FY
2014 report and closed in the FY 2013 FISMA report.

(SBU) Recommendation 13. OIG recommends that the International Boundary and Water
Commission [Redacted] (b) (5)
                                                                  as required by National
Institute of Standards and Technology Special Publication 800-82.

(U) Status: This recommendation has been reissued as Recommendation 3 (Finding B) of the FY
2014 report and closed in the FY 2013 FISMA report.

(SBU) Recommendation 14. OIG recommends that the Information Management Division
ensure all new employees receive security awareness training before authorizing access to the
network, as required by National Institute of Standards and Technology Special Publication 800-
53, Revision 3.

(U) Status: Closed March 2014. IBWC provided new employee security awareness training
completion records.

(SBU) Recommendation 15. OIG recommends that the Information Management Division
finalize and implement its access control policy, which includes remote access, as required by
National Institute of Standards and Technology Special Publication 800-53, Revision 3.

(U) Status: Closed March 2014. IBWC provided its finalized access control policy which
included remote access.




                                          16
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

[Redacted] (b) (5)



(U) Status: Closed March 2014. IBWC implemented remote access controls to include
multifactor authentication, laptop encryption and unique identification of users.

(SBU) Recommendation 17. OIG recommends that the International Boundary and Water
Commission (IBWC) ensure all employees that require remote access capabilities for telework
complete telework agreements and obtain appropriate approval, as required by IBWC’s
Telework Directive.

(U) Status: Closed March 2014. IBWC provided telework agreements for all telework eligible
employees.

(SBU) Recommendation 18. OIG recommends that the International Boundary and Water
Commission identify and implement a multifactor authentication solution, to include a process
for resetting employee Personal Identification Numbers, for logical access to information
systems, as required by National Institute of Standards and Technology Special Publication
800-53, Revision 3.

(U) Status: Closed March 2014. IBWC implemented a multifactor solution, to include a process
for resetting employee Personal Identification Numbers, for logical access.

(SBU) Recommendation 19. OIG recommends that the International Boundary and Water
Commission [Redacted] (b) (5)
                   , as required by the Federal Information Security Management Act Title
III, Section 3544.

(U) Status: This recommendation has been reissued as Recommendation 5 (Finding D) of the FY
2014 report and closed in the FY 2013 FISMA report.

(SBU) Recommendation 20. OIG recommends that the International Boundary and Water
Commission ensure that its Information Management Division is responsible for the oversight of
information technology assets purchased and maintained by the contractor in support of
operations at the South Bay International Wastewater Treatment Plant, as required by the
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53,
Revision 3 and NIST SP 800-82.

(U) Status: Closed March 2014. IBWC ensured that its Information Management Division was
responsible for oversight of information assets purchased and maintained by the contractor.

(SBU) Recommendation 21. OIG recommends that the International Boundary and Water
Commission review and update the appointment letter of the existing contracting officer’s
representative at South Bay International Wastewater Treatment Plant to include responsibilities

                                         17
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

for implementing Federal Information Security Management Act (FISMA) compliance for
information system assets or appoint another individual the duties for overseeing the FISMA
compliance for information system assets.

(U) Status: Closed March 2014. IBWC established an additional contracting officer’s
representative with the responsibility for implementing FISMA.

(SBU) Recommendation 22. OIG recommends that the International Boundary and Water
Commission (IBWC) ensure its Information Management Division reviews and approves
software prior to installation on IBWC assets, as required by The Amendment of
Solicitation/Modification of Contract M027.

(U) Status: Closed March 2014. IBWC relinquished the SBIWTP Admin Network so therefore
this recommendation is no longer applicable.

(SBU) Recommendation 23. OIG recommends that the International Boundary and Water
Commission update position descriptions that require background screenings, incorporate
appropriate risk designations with the position, and specify the requirement to obtain and
maintain the appropriate security clearance.

(U) Status: Closed March 2014. IBWC updated position descriptions that required background
screenings.

(SBU) Recommendation 24. OIG recommends that the International Boundary and Water
Commission (IBWC) finalize suitability background screenings for both employees and
contractors, to include formal adjudication and clearance, as required by IBWC’s Personnel
Security and Suitability Directive.

(U) Status: Closed March 2014. IBWC finalized suitability background screenings for both
employees and contractors.

(SBU) Recommendation 25. OIG recommends that the International Boundary and Water
Commission (IBWC), in coordination with the Bureau of Diplomatic Security, Security
Infrastructure, Computer Security, and the Bureau of Resource Management, Deputy Chief
Financial Officer, Global Financial Management System, suspend IBWC employee access to
OpenNet until employee background screenings are completed and adjudicated.

(U) Status: Closed March 2014. IBWC suspended employee access to OpenNet for employees
who did not have completed and adjudicated background screenings.

(SBU) Recommendation 26. OIG recommends that the International Boundary and Water
Commission (IBWC), Information Management Division, provide annual certification to the
Department of State Bureau of Resource Management indicating that all IBWC OpenNet users
fully comply with Department of State requirements concerning OpenNet access.
(U) Status: Closed March 2014. IBWC developed a formal certification process with the
Department of State Bureau of Resource Management.

                                         18
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

(SBU) Recommendation 27. OIG recommends that the International Boundary and Water
Commission develop and implement a process for conducting and maintaining information
system component inventory, to include all information system components concerning the
Supervisory Control and Data Acquisition systems, as required by National Institute of Standards
and Technology Special Publication 800-53, Revision 3, and the Federal Information Security
Management Act of 2002.

(U) Status: This recommendation has been reissued as Recommendation 6 (Finding D) of the FY
2014 report and closed in the FY 2013 FISMA report.




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


                                                                                                    (U) Appendix C
                                   (U) IBWC Management Responses




    •
                                INTERNATIONAL BOUNDARY AND WATER COMMISSION
                                          UNITED SfATES AND MEXICO
OffiCI! OF nil 001\l.IISSIONU
   IJNTTID STATI'SS!CTION                            July 29, 2014




            Mr. Nonnan P. Brown
            United Stales Department of State
            Assistant Inspector General for Audits
            Office of Inspector General
            Washington, D. C. 20520

            Subject: FY 2014 Audit of the International Boundary and Water Commission United States
            Section (USIBWC), Information Security Program

            Dear Mr. Brown,

            We appreciate the opportunity to respond to the draft report of Audit of International Boundary
            and Water Commission, United States and Mexico, U.S. Section, Information Security Program.
            We appreciate your acknowledgement of the significant progress made by the agency over the
            last year, and look forward to concluding the pending findings within the next year. We will
            continue to keep your office posted on our continued progress towards full implementation of all
            recommendations.

            Please advise if you have any questions or if we may be of any assistance.


                                                          s;""'"'Y·~

                                                     ~~   Commissioner


             Attached: as stated




                                                 20
                                     SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                              (U) List of Recommendations

(SBU) Recommendation 1. OIG recommends that the Intemational Boundary and Water
Conunission [Redacted] (b) (5)
                                                                                     as required
by National Institute of Standards and Teclmology Special Publication 800-53, Rev ision 3.

Response: Concur
The USIBWC is obtaining an [Redacted] (b) (5)                                          , which
will include IT [Redacted] (b) (5)          from a third-party consultant as part oft he
[Redacted] (b) (5)


(SBU) Recommendation 2. OIG recommends that the lntemationai Boundary and Water
Commission [Redacted] (b) (5)
                           to include [Redacted] (b) (5) as required by National Institute of
Standards and Technology Special Publication 800-53, Revision 3.

Response: Concur
'The US lBWC completed a risk assessment ofboth SCADA systems, which will lead to tl1e
[Redacted] (b) (5) expected to be completed this FY. Implementation is planned for FY 2015,
which will include the establislunent of a [Redacted] (b) (5)


(SBU) Recommendation 3. OlG recommends that the International Boundary and Water
Conm1ission [Redacted] (b) (5)
                    as required by National Institute of Standards and Technology Special
Publication 800-82.

Response: Concur
The USIBWC completed a risk assessment of both SCADA systems, and the design for the
Nogales IWTP is underway. The design for the San Diego IWTP SCAD A system will be
completed by end ofthe 2014. The award will be issued by end ofFY 2014. The
implementation of the [Redacted] (b) (5)
                                      will be accomplished in FY 2015.

(SBU) Recommendation 4. OIG recommends that the Intemational Boundary and Water
Commission [Redacted] (b) (5)                                              , as required by
National Institute of Standards and Technology Special Publication 800-34, Revision 1.

Response: Concur
The USIBWC's plan is still on target to complete a [Redacted] (b) (5)
       in FY 2014.




                                   21
                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                                                                                    Enclosure


(SBU) Recommendation 5. OIG recommends that the Intemational Boundary and Water
Commission ensure its [Redacted] (b) (5)
[Redacted] (b) (5)    [Redacted] (b) (5)

Response: Concur
The O&M contract is being amended to officially exclude the Admin Network from
USIBWC systems inventory this FY. In addition, the !SSM as a designated Contracting
Officer Representative is required to review and approve all proposed equipment in
support of the SCADA system. [Redacted] (b) (5)



(SBU) Recommendation 6. OIG recommends that the lntemational Boundary and Water
Commission (IBWC) detennine ownership of infonnation technoiOJ>'Y inventory and update the
Integrated Logistic.<; Management System to accurately reflect IBWC's current infonnation
system components, as required by National Institutes of Standards and Technology Special
Publication 800-53, Revision 3.

Response: Concur
A comprehensive inventory was conducted earlier in FY 2014, along with an inventory
validation in June. The Integrated Logistics Management System is being updated to ensure that
only USIBWC's IT components are maintained in the system. All required updates will be
accomplished FY 2014.




                                  22
                      SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


(U) Major Contributors to This Report
Jerry Rainwaters, Director
Information Technology Division
Office of Audits

Steve Matthews, Information Technology Manager
Information Technology Division
Office of Audits

Kenneth Bensman, Auditor in Charge
Information Technology Division
Office of Audits




                                       23
                           SENSITIVE BUT UNCLASSIFIED
  SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




              24
  SENSITIVE BUT UNCLASSIFIED
